HHS/OIG, Audit - "Review of Medicaid Outpatient Drug Expenditures in
Missouri for the Period October 1, 2002, Through September 30, 2004,"
(A-07-06-04063)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Outpatient Drug Expenditures in
Missouri for the Period October 1, 2002, Through September 30, 2004,"
(A-07-06-04063)
June 13, 2008
Complete
Text of Report is available in PDF format (664 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
For fiscal years 2003
and 2004, Missouri claimed $2.9 million in Medicaid reimbursement for
prescription drugs that were no longer eligible for reimbursement or
inadequately documented. The Medicaid drug rebate program generally pays
for covered outpatient drugs if their manufacturers have rebate agreements with
Centers for Medicare & Medicaid Services (CMS) and pay rebates to the States.
Under the drug rebate program, CMS provides the States with a quarterly Medicaid
drug tape, which the States use to verify coverage of the drugs for which they
claim reimbursement.
An additional $1.9 million represented
expenditures for drug products that were not listed on the quarterly drug
tapes.  Because the State did not verify whether these drugs were eligible for
coverage, these expenditures may not have been allowable.  We identified no
other errors for the remainder of the $2.09 billion ($1.33 billion Federal
share) that the State claimed.
We recommended that the State (1) refund $2.9 million to the Federal Government
for drug expenditures that were not
eligible for Medicaid coverage, (2) work with CMS to resolve $1.9 million
in payments for drugs that were not listed
on the quarterly drug tapes and that may not have been eligible for Medicaid
coverage, and (3) strengthen internal controls to ensure that claimed
Medicaid drug expenditures comply with Federal requirements.  The State
disagreed with our findings and recommendations.